            DEPARTMENT OF HEALTH AND HUMAN SERVICES                              Office of Inspector General
                                                                                  Office of Audit Services

                                                                                        REGION IV
                                     SEP     4 2008                         61 Forsyth Street, S.W., Suite 3T41
                                                                                 Atlanta, Georgia 30303




Report Number: A-04-07-06026

Ms. Gina Jenkins, Senior Director
Palmetto GBA - Railroad Medicare
2743 Perimeter Parkway
Building 200 - 4th Floor
Augusta, Georgia 30909

Dear Ms. Jenkins:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office ofInspector
General (DIG), final report entitled "Review of High-Dollar Payments for Medicare Part B
Claims Processed by Palmetto GBA, Railroad Benefit Contractor #882, for the Period January 1,
2004, Through December 31, 2006." We will forward a copy of this report to the HHS action
official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Pursuant to the principles of the Freedom ofInformation Act, 5 U.S.C. § 552, as amended by
P.L. No. 104-231, DIG reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR pt. 5). Accordingly, this report will
be posted on the Internet at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Mary Ann Moreno, Audit Manager, at (904) 232-2687 or through e-mail at
Mary.Moreno@oig.hhs.gov. Please refer to report number A-04-07-06026 in all
correspondence.

                                             Sincerely,


                                             ~(:.' D-'-~/f
                                             ~;onal   Inspector General
                                              for Audit Services

Enclosure
Page 2 - Ms. Gina Jenkins

Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly, Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




    REVIEW OF HIGH-DOLLAR
    PAYMENTS FOR MEDICARE
 PART B CLAIMS PROCESSED BY
   PALMETTO GBA, RAILROAD
  BENEFIT CONTRACTOR #882,
        FOR THE PERIOD
  JANUARY 1, 2004, THROUGH
      DECEMBER 31,2006




                    Daniel R. Levinson
                     Inspector General

                     September 2008
                      A-04-07-06026
                                                                                                  l
                                                                                                      I

                    Office ofInspector General
                                     http:// oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office ofAudit Services

The Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance ofHHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments ofHHS programs
and operations. These assessments help reduce waste, abuse, and mismanagement and promote
economy and efficiency throughout HHS.

Office ofEvaluation and Inspections

The Office of Evaluation and Inspections (OEl) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
Specifically, these evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness in departmental programs. To promote impact, the
reports also present practical recommendations for improving program operations.

Office ofInvestigations

The Office ofInvestigations (01) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment
by providers. The investigative efforts of 01 lead to criminal convictions, administrative
sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
in OIG's internal operations. OCIG imposes program exclusions and civil monetary penalties on
health care providers and litigates those actions within HHS. OCIG also represents OIG in the
global settlement of cases arising under the Civil False Claims Act, develops and monitors
corporate integrity agreements, develops compliance program guidances, renders advisory
opinions on OIG sanctions to the health care community, and issues fraud alerts and other
industry guidance.
                           Notices


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people age 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS), which administers the program,
contracts with carriers to process and pay Medicare Part B claims submitted by physicians and
medical suppliers (providers). CMS guidance requires providers to bill accurately and to report
units of service as the number of times that a service or procedure was performed.

Carriers currently use the Medicare Multi-Carrier Claims System and CMS' s Common Working
File to process Part B claims. These systems can detect certain improper payments during
prepayment validation.

Palmetto GBA (Palmetto) is the Railroad Medicare Part B carrier for providers nationwide.
During calendar years 2004-2006, Palmetto processed more than 37 million Railroad Part B
claims, 145 of which resulted in payments of$IO,OOO or more (high-dollar payments).

OBJECTIVE

Our objective was to determine whether Palmetto's high-dollar Railroad Medicare payments to
Part B providers were appropriate.

SUMMARY OF FINDING

Of the 145 high-dollar payments that Palmetto paid to providers, 137 were appropriate. Palmetto
overpaid eight providers $110,905 for the remaining claims.

The providers attributed the incorrect claims to clerical errors or insufficient documentation to
support the units billed.

In addition, Palmetto made the overpayments because providers incorrectly submitted claims and
the Medicare claim processing systems did not have sufficient edits in place during calendar
years 2004-2006 to detect and prevent payments for these types of erroneous claims. However,
in January 2007, Palmetto implemented CMS-required units-of-service edits referred to as
"medically unlikely" edits to suspend potentially excessive Medicare payments for prepayment
reVIew.
RECOMMENDATION

We recommend that Palmetto recover the $110,905 in overpayments.

PALMETTO GBA COMMENTS

In written comments on our draft report, Palmetto agreed to recover the $110,905 in
overpayments. The complete text of Palmetto's comments is included as the Appendix.




                                             11
                       TABLE OF CONTENTS



INTRODUCTION                               1

    BACKGROUND                             1
        Medicare Part B Carriers           1
        Palmetto GBA                       1
        "Medically Unlikely" Edits         1

    OBJECTNE, SCOPE, AND METHODOLOGY       .2
         Objective                          2
         Scope                              2
         Methodology                        2

FINDING AND RECOMMENDATION                 3

    MEDICARE REQUIREMENTS                  3

    INAPPROPRIATE HIGH-DOLLAR PAYMENTS     3

    CAUSES OF INCORRECT PAYMENTS           .4

    RECOMMENDATION                         4

    PALMETTO GBA COMMENTS                  4

APPENDIX

    PALMETTO GBA COMMENTS




                                     111
                                              INTRODUCTION

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people age 65 and over and those who are disabled or have permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Medicare Part B Carriers

Prior to October 1,2005, section 1842(a) of the Act authorized CMS to contract with carriers to
process and pay Medicare Part B claims submitted by physicians and medical suppliers
(providers). 1 Carriers also review provider records to ensure proper payment and assist in
applying safeguards against unnecessary utilization of services. To process providers' claims,
carriers currently use the Medicare Multi-Carrier Claims System and CMS' s Common Working
File (CWF). These systems can detect certain improper payments during prepayment validation.

CMS guidance requires providers to bill accurately and to report units of service as the number of
times that a service or procedure was performed. During calendar years (CY) 2003-2005,
providers nationwide submitted approximately 2.3 billion claims to carriers. Of these, 29,022
claims resulted in payments of $1 0,000 or more (high-dollar payments). We consider such
claims to be at high risk for overpayment.

Palmetto GBA

Palmetto GBA (Palmetto) is the Railroad Medicare Part B carrier for providers. During CYs
2004-2006, Palmetto processed more than 37 million Part B claims, 145 of which resulted in
payments of $10,000 or more (high-dollar payments).

"Medically Unlikely" Edits

In January 2007, after our audit period, CMS required carriers to implement units-of-service edits
referred to as "medically unlikely" edits. These edits are designed to detect and deny unlikely
Medicare claims on a prepayment basis. According to the "Medicare Program Integrity Manual,"
Publication 100-08, Transmittal 178, Change Request 5402, medically unlikely edits test claim
lines for the same beneficiary, Healthcare Common Procedure Coding System code, date of
service, and billing provider against a specified number of units of service. Carriers must deny
the entire claim line when the units of service billed exceed the specified number.




lThe Medicare Modernization Act of 2003, Pub. L. No.1 08-173, which became effective on October 1, 2005,
amended certain sections of the Act, including section 1842(a), to require that Medicare administrative contractors
replace carriers and fiscal intermediaries by October 2011.

                                                          1
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Palmetto's high-dollar Railroad Medicare payments to
Part B providers were appropriate.

Scope

We reviewed the 145 high-dollar payments totaling $2,094,830 that Palmetto processed during
CYs 2004-2006. We limited our review of Palmetto's internal controls to those applicable to the
145 high-dollar claims because our objective did not require an understanding of all internal
controls over the submission and processing of claims. Our review allowed us to establish
reasonable assurance of the authenticity and accuracy ofthe data obtained from the National
Claims History file, but we did not assess the completeness of the file.

We performed our fieldwork from August 2007 through May 2008. Our fieldwork included
contacting Palmetto, located in Augusta, Georgia, and the providers which received high-dollar
payments.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Medicare laws, regulations, and guidance;

   •    used CMS's National Claims History file to identify Medicare Part B claims with high-
        dollar payments;

   •    reviewed available CWF claim histories for claims with high-dollar payments to
        determine whether the claims had been canceled and superseded by revised claims or
        whether payments remained outstanding at the time of our fieldwork;

   •    analyzed CWF data for canceled claims for which revised claims had been submitted to
        determine whether the initial claims were overpayments;

   •    contacted providers to determine whether high-dollar claims were billed correctly and, if
        not, why the claims were billed incorrectly; and

   •    coordinated our claim review, including the calculation of any overpayments, with
        Palmetto.




                                                2
We conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective.

                            FINDING AND RECOMMENDATION

Of the 145 high-dollar payments that Palmetto paid to providers, 137 were appropriate. Palmetto
overpaid eight providers $110,905 for the remaining claims.

The providers attributed the incorrect claims to clerical errors or insufficient documentation to
support the units billed.

In addition, Palmetto made the overpayments because providers incorrectly submitted claims and
the Medicare claim processing systems did not have sufficient edits in place during CYs 2004-
2006 to detect and prevent payments for these types of erroneous claims. However, in January
2007, Palmetto implemented CMS-required units-of-service edits referred to as "medically
unlikely" edits to suspend potentially excessive Medicare payments for prepayment review.

MEDICARE REQUIREMENTS

The CMS "Carriers Manual," Publication 14, Part 2, section 5261.1, requires that carriers
accurately process claims in accordance with Medicare laws, regulations, and instructions.
Section 5261.3 of the manual requires carriers to effectively and continually analyze "data that
identifies aberrancies, emerging trends and areas of potential abuse, overutilization or
inappropriate care, and ... on areas where the trust fund is most at risk, i.e., highest volume
and/or highest dollar codes."

INAPPROPRIATE HIGH-DOLLAR PAYMENTS

Palmetto made overpayments totaling $110,905 for eight high-dollar claims:

   •    For two claims, the providers stated that they billed incorrect procedure codes due to
        clerical errors. As a result, Palmetto overpaid the providers $42,693.

   •    For two claims, the providers stated that they billed incorrect units of service due to
        clerical errors. As a result, Palmetto overpaid the providers $31,905.

    •   For two claims, the providers did not address the reason why they billed the incorrect
        units of service. The providers simply stated that the units of service were billed
        incorrectly. As a result, Palmetto overpaid the providers $18,625.

    •   For one claim, the provider stated that it did not have sufficient documentation for the
        claim; therefore, we identified each unsupported unit of service as an error. As a result,
        Palmetto overpaid the provider $16,298.


                                                  3
    •   For one claim, the provider stated it had refunded an overpayment for the claim; however,
        the provider had no documentation of the refund and Palmetto stated the provider had not
        refunded the claim. As a result, Palmetto overpaid the provider $1,384.

CAUSES OF INCORRECT PAYMENTS

The providers attributed the incorrect claims to clerical errors or insufficient documentation to
support the units billed. In addition, during CYs 2004-2006, the Medicare Multi-Carrier Claims
System and the CMS CWF did not have sufficient prepayment controls to detect and prevent
inappropriate payments resulting from claims for excessive units of service. Instead, CMS relied
on providers to notify carriers of overpayments and on beneficiaries to review their "Medicare
Summary Notice" and disclose any provider overpayments? However, in January 2007,
Palmetto implemented CMS-required units-of-service edits referred to as "medically unlikely"
edits to suspend potentially excessive Medicare payments for prepayment review.

RECOMMENDATION

We recommend that Palmetto recover the $110,905 in overpayments.

PALMETTO GBA COMMENTS

In its July 18, 2008 written comments on our draft report, Palmetto stated that it had initiated
recovery of the $110,905 in overpayments. The complete text of Palmetto's comments is
included as the Appendix.




2The carrier sends a "Medicare Summary Notice" to the beneficiary after the provider files a claim for Part B
service(s). The notice explains the service(s) billed, the approved amount, the Medicare payment, and the amount
due from the beneficiary.

                                                         4
APPENDIX
                                                                                                        APPENDIX
                                                                                                         Page 1 of2




                                                                                                          Gina Jenkins
                                                                                                          Senior Director
                                                                                                   RRB Program Manager




                                                                                                 July 18, 2008

Peter J. Barbera
Regional Inspector General
for Audit Services, Region IV
61 Forsyth Street, S.W., Suite 3T41
Atlanta,~rgia30303


REF: Report Number: A-04-07-06026

Dear Mr. Barbera:

I am writing in response to the draft report received June 18,2008 entitled "Review of High-Dollar
Payments for Medicare Part B Claims Processed by Palmetto GBA, Railroad Benefit Contractor #880,
for the period January 1, 2004, through December 31, 2006."

BACKGB,OUND
The Centers for Medicare & Medicaid Services (CMS) guidance requires providers to bill accurately
and to report units ofscrvice as the number oftimes that a service or procedure was performed. During
calendar years (CY) 2003 - 2005, providers nationwide submitted approximately 2.3 billion claims to
carriers. Ofthese, 29,022 claims resulted in payments of$10,000 or more (high-dollar payments.) We
consider such claims to be at high risk for overpayments.

Palmetto GBA is the Railroad Medicare Part B carrier for providers. During CYs 2004-2006, Palmetto
GBA processed more than 37 million Part B claims, 145 ofwhich resulted in payments of S10,000 or
more (high-dollar payments.)

OBJECTIVE
The objective of your review was to determine whether the high-dollar payments made to Railroad
Medicare Part B providers were appropriate.

FINDINGS AND RECOMMENDATIONS
Ofthe 145 high-dollar payments that were made to providers, 137 were appropriate, 8 providers were
overpaid at a combined total of SIlO,905. The overpayments were attributed to providers submitting
incorrect claim information, coding errors on the claims, and insufficient documentation to support the
number ofunits billed.
It was recommended that Palmetto GBA recover the $110,905.

RESPONSE
Palmetto GBA agrees with the recommendation to collect the overpaid amount ofSl10,905. We have
thoroughly reviewed the 8 claims that were paid in error. In all cases the provider was found to be at
fault, Palmetto GBA processed the claims as they were submitted. The 8 claims have been referred to
our account receivable unit to initiate recoupment ofthe overpayments for a total amount ofSll0.905.
In January 2007, Palmetto GBA implemented CMS required units-of-service edits. We also suspend
claims that qualifY as high-dollar payments for review prior to adjudication.
                                      _.pelmeItogb4l.c:om   12143
                                                              P8rImIlter Pkwy. Bldg 200, Ste ~
                                            ISO 0001:aooo Auguatll. GA 308Oll
                                                                                                           APPENDIX
                                                                                                            Page 2 of2
"~J      •.BarbeI'&·M.. ,   __ ...._.~.....·            M__    .MM       M __.M       .
July 18, 2008
Page 2



    Palmetto GBA appreciates the opportunity to be included in this review. It is our goal that the Medicare
    Trust Fund be upheld with integrity from the Medicare contractor and provider community perspective.

    If you have any questions in regards to this response, please contact me at (706) - 855-3371.


                                                                        Sincerely,


                                                                           ~-
                                                                        Gina Jenkins
                                                                        Senior Director
                                                                        Railroad Medicare Administration

    CC Bruce Hughes
       Joe Giansante




                                               _.pelme\togblI.com   I
                                                                   POit 0flIce Box 100134
                                                     ISO 9001:2000 Columblll, Soulh carolina 2t202-3134
